                                                                             U.S. Department of Justice




United States Attorney

Northern District of Illinois
Patrick J. Fitzgerald                        Federal Building
United States Attorney                       219 South Dearborn Street, Fifth Floor
                                             Chicago, Illinois 60604
                                             (312) 353-5300


FOR IMMEDIATE RELEASE                                                        PRESS CONTACT:
FRIDAY JUNE 4, 2004                                                          AUSA/PIO Randall Samborn
                                                                             (312) 353-5318


     FOUR CHICAGO DEFENDANTS ARRESTED IN ALLEGED SCHEME TO AID
    HUNDREDS OF UNQUALIFIED DRIVERS OBTAIN LICENSES IN WISCONSIN


          CHICAGO – A Chicago businessman and three of his former employees are facing

federal charges for allegedly helping at least 600 ineligible individuals from Illinois and other

states fraudulently obtain regular and commercial driver’s licenses in Wisconsin, federal

authorities announced today. A series of four arrests that began two weeks ago and ended last

night represents an expansion of Operation Safe Road, the six-year-old Chicago-based

investigation that has exposed fraud in state licensing systems in Illinois, Florida and now

Wisconsin. The defendants typically demanded and obtained cash payments up to $2,000 to

assist applicants, many of them foreign nationals, in obtaining Wisconsin truck licenses even

though they did not live in Wisconsin and had not demonstrated an adequate knowledge of

commercial vehicles or the ability to operate them safely.
        Each defendant was charged separately in four criminal complaints that were unsealed

today. The charges were announced by Patrick J. Fitzgerald, United States Attorney for the

Northern District of Illinois; Anita L. Davidson, Inspector-in-Charge of the U.S. Postal

Inspection Service in Chicago, and Craig Singleton, Acting Special Agent-in-Charge of the

Midwest Office of the U.S. Department of Transportation. The investigation, which began in

May 2003 and is Chicago-based, is continuing with the assistance of federal authorities in

Wisconsin, they said.

        The charges allege that at least one of the defendants made cash payments to employees

of a private company – a so-called “third-party tester” – in Wisconsin that is certified by state

authorities to administer pre-trip and road tests to commercial driver’s license applicants. They

do not contain any allegations, however, of corruption by any appointed or elected Wisconsin

state employees or public officials.

        Federal authorities also said they are working with Wisconsin motor vehicle officials to

begin the process of identifying and notifying individuals whose licenses are suspect that they

will be subject to re-testing.

        “At its root, this investigation began and continues to be about ensuring public safety on

our nation’s highways,” Mr. Fitzgerald said. “Individuals must not be allowed to profit by

exploiting flaws in a system that is supposed to ensure that licensed drivers are properly

qualified.”

        The defendants and the charges against each are:

        Adam Babul, 48, of Chicago, owner of Bamba, Inc., 3144 N. Austin, – where
        agents executed a search warrant last night – was arrested Thursday night and
        charged with conspiracy to make false statements to a bank in Milwaukee to
        further a scheme that enabled clients to fraudulently obtain Wisconsin driver’s
        licenses and commercial driver’s licenses;

        Rafal Maliszewski, 25, of Chicago, was arrested May 19 and charged with
        making false statements to the Milwaukee bank and conspiracy for allegedly
        assisting clients in opening accounts and obtaining checkbooks showing a
        Wisconsin address, which they would then use to misrepresent their residency to
       Wisconsin licensing officials. He began cooperating in the investigation
       following his arrest, according to the charging documents;

       Magdalena Jelic, 28, of Chicago, was arrested June 2 and charged with
       conspiracy for allegedly working in concert with the other defendants to make
       false statements to the same bank in Milwaukee;

       Agnieszka D. Gierula, 32, of Chicago, was also arrested June 2 and charged with
       two counts of obstruction of justice for allegedly attempting to persuade
       Maliszewski to lie about their fraudulent licensing activities;

       Babul, Jelic and Gierula were scheduled to appear this morning before Magistrate Judge

Martin Ashman in U.S. District Court. Maliszewski was expected to appear in court at a later

date. Babul was ordered held in custody pending a detention hearing at 3 p.m. on Monday, June

7.

       According to the four complaints collectively, all four defendants conspired in the

licensing fraud scheme between at least May and August 2003, while they worked with each

other, and for Babul, at Bamba. At that time, Jelic was employed as Bamba’s office manager;

Gierula assisted her; and Maliszewski worked principally as a driver and translator. In August

2003, Jelic, Gierula and Maliszewski ended their employment with Bamba and the two women

opened a new company (identified as “Company B”) in Chicago that provided similar services.

Maliszewski began working for Company B, performing the same services that he provided

while working for Babul, until late 2003 when began working on his own.

       The charges allege that, while he was working at Bamba, and at Babul’s direction, as well

as later, Maliszewski escorted hundreds of regular and commercial driver’s license applicants

from Illinois and other states to the Milwaukee area, where he assisted them in opening bank

accounts and obtaining checkbooks with local addresses provided to him. On subsequent trips

to Wisconsin, Maliszewski translated the written tests for the CDL applicants into Polish,


                                               3
ensuring that the applicants passed by either verbally giving them the correct answers or by using

covert body signals to identify the correct answers.

       Under state and federal law, truck and other commercial vehicle drivers must obtain a

CDL only in the state where they reside, and they must meet certain minimum federal

requirements, including passing a series of written tests, followed by a series of skills (or road)

tests. In Wisconsin, applicants must have written proof of residency and pass a medical test.

Unlike Illinois – which now requires that tests be given in English and prohibits the use of

translators – Wisconsin allows applicants who speak certain foreign languages, including Polish,

to use an interpreter to read aloud and translate the questions and the multiple choice answers on

the written tests. The interpreters are required to abide by a written agreement prohibiting giving

any unauthorized assistance to the applicants during the tests.

       As part of the conspiracy, the defendants allegedly:

       •       obtained Wisconsin addresses from Wisconsin residents for use as a “mail drop” for their
               Illinois applicants;

       •       caused false statements to be made to Associated Bank in Milwaukee to open bank
               accounts in the names of applicants who were not Wisconsin residents. Such false
               statements were used to obtain documents from the bank showing a local Wisconsin
               address for the applicants, who then misrepresented their residency to the Wisconsin
               Department of Transportation in the licensing process;

       •       arranged for Maliszewski to fraudulently assist numerous foreign language speaking
               CDL applicants who resided in other states by translating and manipulating CDL written
               tests at Wisconsin DMV; and

       •       fraudulently assisted CDL applicants in securing Wisconsin Instructional CDL permits
               and CDLs, including by arranging to pay as much as $300 per applicant to private road
               test examiners certified by the state of Wisconsin.

       If convicted, making false statements to banks carries a maximum penalty of 30 years in

prison and $1 million fine, while conspiracy to do so carries a maximum penalty of 5 years in


                                                 4
prison and a $250,000 fine. The obstruction of justice counts against Gierula each carry a

maximum penalty of 5 years in prison and a $250,000 fine.         The Court, however, would

determine the appropriate sentence to be imposed under the United States Sentencing Guidelines.

         These charges bring to 76 the number of defendants, including at least 30 current or

former Illinois state employees or officials, who have been charged since Operation Safe Road

began in 1998. Of those, 61 have been convicted and cases are pending against the remaining

defendants.

         The government is being represented by Assistant U.S. Attorneys Valarie Hays and

Patrick M. Collins.



         The public is reminded that complaints contain only charges and are not evidence of

guilt.   The defendants are presumed innocent and are entitled to a fair trial at which the

government has the burden of proving guilt beyond a reasonable doubt.




                                            ####




                                              5
